<html>
<title> - ASSESSING THE DISTRICT OF COLUMBIA METROPOLITAN POLICE DEPARTMENT'S YEAR 2000 PERFORMANCE</title>
<body><pre>[Senate Hearing 107-95]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 107-95

  ASSESSING THE DISTRICT OF COLUMBIA METROPOLITAN POLICE DEPARTMENT'S 
                         YEAR 2000 PERFORMANCE

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
        RESTRUCTURING, AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 22, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
72-499                     WASHINGTON : 2001

_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
           JOSEPH I. LIEBERMAN, Connecticut, Ranking Democrat
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              JEAN CARNAHAN, Missouri
             Hannah S. Sistare, Staff Director and Counsel
     Joyce A. Rechtschaffen, Democratic Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
             RICHARD J. DURBIN, Illinois, Ranking Democrat
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
SUSAN M. COLLINS, Maine              ROBERT G. TORRICELLI, New Jersey
PETE V. DOMENICI, New Mexico         THOMAS R. CARPER, Delaware
THAD COCHRAN, Mississippi            JEAN CARNAHAN, Missouri
                   Andrew Richardson, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Voinovich............................................     1

                               WITNESSES
                        Thursday, March 22, 2001

John A. Koskinen, City Administrator, District of Columbia.......     3
Margret Nedelkoff Kellems, Deputy Mayor for Public Safety and 
  Justice, District of Columbia..................................     6
Charles H. Ramsey, Chief of Police, District of Columbia 
  Metropolitan Police Department.................................    10

                     Alphabetical List of Witnesses

Kellems, Margret Nedelkoff:
    Testimony....................................................     6
    Prepared statement...........................................    33
Koskinen, John A.:
    Testimony....................................................     3
    Prepared statement...........................................    27
Ramsey, Charles H.:
    Testimony....................................................    10
    Prepared statement with attachments..........................    43

 
  ASSESSING THE DISTRICT OF COLUMBIA METROPOLITAN POLICE DEPARTMENT'S 
                         YEAR 2000 PERFORMANCE

                              ----------                              


                        THURSDAY, MARCH 22, 2001

                                       U.S. Senate,
         Oversight of Government Management, Restructuring,
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:20 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The hearing will please come to order. 
First of all, I want to apologize to the witnesses for being 
late. We had a vote and a computer glitch. I want to thank you 
for coming, and I am hoping that some of my other colleagues 
may appear, although some of their staff people will be reading 
your testimony and going over it.
    This is the fourth time in 2 years that we have come 
together to discuss the progress of performance management in 
the District of Columbia. Our efforts so far have focused on 
encouraging the District to consolidate its various performance 
documents, and while much work remains to be done in this 
regard, I am pleased to report that the District's efforts, 
with the Subcommittee's encouragement, may be paying off. The 
Mayor's office has acknowledged and begun to address the need 
to consolidate the various performance documents into a 
comprehensive plan to inform the public and enable the District 
Government to measure its performance.
    Today, the Subcommittee meets to highlight the Metropolitan 
Police Department's performance achievements from last year, 
using the MPD as an example of how performance measurement is 
working in the District. I am pleased today to welcome City 
Administrator John Koskinen, Deputy Mayor for Public Safety and 
Justice Margret Kellems, and Police Chief Charles Ramsey.
    Crime and public safety have been hot issues in the 
District for decades. Like many cities in Ohio where I am from, 
gaining the upper hand in law enforcement continues to be a 
daily struggle. My hat goes off to Police Chief Ramsey and 
Deputy Mayor Kellems for taking on this responsibility and 
working daily to make our Nation's Capital a safer place to 
live, work, and visit.
    Despite these efforts, public safety reports on the 
District remain mixed. On a positive note, Chief Ramsey has 
been praised for responding to the residents' demand to put 
more officers on patrol. As a result, violent crime in the 
District decreased 2.5 percent in 2000, though, Chief, I am 
sure people can debate that one way or another. As Mayor for 10 
years of Cleveland, I thought putting more people out there 
made the difference, but sometimes other things came into play.
    However, negative coverage continues to plague the 
Department, as highlighted by recent stories on the mishandling 
of child abuse reports and homicide case files.
    To combat some of these problems, the Metropolitan Police 
Department established performance measures in the District's 
Year 2000 Performance Accountability Plan that was submitted to 
Congress in 1999. These performance goals were then revised 
halfway through the performance cycle, accompanied by a letter 
from Mayor Williams explaining that the District intends to be 
held more accountable for the revised goals rather than the 
goals laid out at the beginning of the cycle. So, essentially, 
the District decided to move the goal posts halfway through the 
year.
    This was confusing to me, and certainly confusing, I 
suspect, to the residents of the city, who want to know how 
their government is performing. In other words, the District 
had 1999 goals, and then I think in March 2000 they revised 
those goals.
    The Department's year 2000 goals range from reducing 
homicide and improving 911 response time, to increasing youth 
membership in the Metropolitan Police Department Boys and Girls 
Clubs and upgrading the Department's technology. These goals 
are the focus of today's hearing.
    It concerns me to report that of the 20 performance goals 
established for 2000, only 4 were realized. That is a 20-
percent success rate. On top of last year's questionable 
performance, I was exceedingly discouraged to learn that the 
Department intends to drop 17 of its 20 performance measures 
for Fiscal Year 2002.
    For example, such tangible outcome measures as reduction in 
homicides and aggravated assaults are being replaced by a 
measure of Part I violent crimes. Last year's measures to 
improve 911 response time are being replaced by a measure of 
the number of calls the MPD receives on public disorders. I am 
confused as to exactly how the number of distress calls the 
Department receives relates to the agency's ability to respond 
to such emergencies. I mean, really what we are interested in 
is response time, not the number of calls. It seems to me that 
everywhere in the country you measure your response times.
    Essentially, it appears that the Department is replacing 
tangible, transparent performance goals with some ambiguous, 
unaccountable measures. I would be interested to hear how the 
witnesses justify these changes in performance measures.
    The Subcommittee also looks forward to learning whether the 
Metropolitan Police Department's successes and failures were 
typical among District agencies, and whether other agencies in 
the District intend to replace last year's performance measures 
with a new set of measures.
    What I am getting at is that we had 1999 measures, then we 
changed them in 2000, and now I understand we are going to be 
changing them again. The issue is what measures are we going to 
use next year when we measure the performance of the District. 
What are they?
    On a related issue, I am disappointed with the submission 
of the District's Fiscal Year 2000 Performance Accountability 
Report which was due March 1 and still has not been submitted. 
I must tell you that I scheduled this hearing with the 
expectation that the report would be here on time. As a result, 
this morning's hearing will not be as meaningful, I think, as 
it could be. I am putting the District Government on notice 
today that I would like to have that report on time next year.
    It also presents a problem for the General Accounting 
Office, because they are supposed to review it and get back to 
us by April 15 of this year. Again, that is going to present 
them with a problem in trying to meet their deadline that they 
are supposed to make to Congress.
    On a more cordial note, I would like to congratulate the 
Williams administration for its progress so far. I am well 
aware that the Mayor has only been in office for a little over 
2 years, and that these types of changes do take time. Although 
much work remains to be done, I believe the District is on the 
right track.
    I am particularly impressed with the quality of individuals 
that the Mayor has been able to attract to the administration. 
I think all of us know that an administrator--a mayor, 
governor, commissioner--is only as good as the quality of the 
individuals that they are able to attract to their team. I do 
want to have responses, though, to the questions that I have 
raised in this statement.
    Since Senator Durbin is not here, I think we will move 
immediately to your presentations. If you could limit them to 
no more than 5 minutes, I would be most appreciative. We will 
start out with Mr. Koskinen.

TESTIMONY OF JOHN A. KOSKINEN,\1\ CITY ADMINISTRATOR, DISTRICT 
                          OF COLUMBIA

    Mr. Koskinen. Thank you, Mr. Chairman. I appreciate the 
opportunity to provide you and the Subcommittee with an update 
of the status of the development of the District of Columbia's 
performance management system. With your approval, I will 
submit for the record my full statement and summarize it here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Koskinen appears in the Appendix 
on page 27.
---------------------------------------------------------------------------
    I am joined here today by Margret Nedelkoff Kellems, Deputy 
Mayor for Public Safety and Justice, and Charles Ramsey, Chief 
of the Metropolitan Police Department.
    I will present an overview of the District's performance 
management system, our ultimate goals, the status of several 
issues that we still need to address, and our prognosis about 
how long it will take to resolve these issues.
    Ms. Kellems will discuss the criteria she used to evaluate 
Chief Ramsey's performance during 2000, including the Chief's 
FY 2000 performance contract with the Mayor and the Chief's 
calendar 2000 scorecard of performance measures. Chief Ramsey 
will then discuss his own evaluation of his performance and 
that of the Metropolitan Police Department.
    I am pleased to submit to you this morning the District of 
Columbia Fiscal Year 2000 Performance Accountability Report, 
which as you note was due on March 1. As we had advised your 
staff, we have been trying to consolidate this process, we have 
been a few days behind. But to assist GAO in their work, as you 
noted, we have been providing them the chapters of this report 
as it was prepared. So several of those, about half of them, 
were in their hands on March 1. We are committed, as we 
streamline this process, to submit next year's report well in 
advance of the March 1 deadline.
    As you know and stated, Mayor Williams strongly supports 
the development of strategic goals and the use of performance 
goals and measures as a way of improving the delivery of 
municipal services to our citizens. He understands that this 
should not be a paperwork exercise, but needs to lead to a 
system of tracking progress and managing against performance on 
an ongoing basis.
    When fully realized, the District of Columbia's performance 
management system will allow the government to set priorities 
that reflect the input of all relevant stakeholders, including 
citizens, local businesses, non-profit organizations, the faith 
community, the City Council, and the Congress; establish goals 
and measures that we track over an extended period of time of 
at least 3 to 5 years, to be able to deal with the concerns you 
and everyone have about shifting the goals which we are 
measuring year to year; establish goals and measures that tie 
the priorities into performance contracts between the Mayor and 
his cabinet agency directors that will manage against those 
priorities, goals, and measures; and measure and report 
performance to the public, the Council, and the Congress on a 
regular basis.
    Implementing a complete performance management and 
reporting system is an evolutionary process, and we expect that 
additional improvements will need to be made over the next 2 
years. Nonetheless, especially judged against my experience 
overseeing the Government Performance and Results Act for 3 
years at OMB, I think the District Government has achieved 
significant success thus far in its efforts to establish a 
performance management system.
    Let me give you a brief review of what we have achieved to 
date. During 1999 to 2000, the District emphasized engaging 
citizens in the development of its first citywide strategic 
plan. As we prepare to update the citywide strategic plan this 
coming fall, we plan to continue to engage District residents 
this spring and summer through identifying neighborhood-
specific priorities and needs by developing 39 strategic 
neighborhood action plans. In addition, we plan to seek input 
from the Council and the Congress in updating the citywide 
strategic plan prior to the October 2001 Citizen Summit.
    As you noted, over the course of the first 2 years of the 
Williams administration, we have generated some inconsistencies 
by changing goals and measures during the reporting period and 
establishing different reporting periods--fiscal years for the 
budget and calendar years for the District's year 2000 
scorecard.
    Some of this inconsistency is not surprising in the early 
stages of establishing a performance management system. 
Nonetheless, we have directed agencies to review past years' 
sets of goals and measures and to consolidate them into a 
single set of goals and measures consistent with the citywide 
strategic plan, agency strategic plans, the directors' 
performance contracts, the budget goals and performance 
measures, and the performance plans for the middle managers, 
the management supervisory service, and excepted service 
personnel. Ultimately we will have one set of goals that are 
consistent in all of our plans, budget submissions, contract 
reports, and performance reports. They will allow us to track 
trend data over a series of years.
    In the past, agencies have tended to emphasize process 
measures or inputs and outputs. While these goals are 
important, we are asking agencies to shift their emphasis to 
measures of efficiency, quality, and outcomes, such as 
improvement in health care vital statistics or decreases in the 
number of fires throughout the District. As you noted in your 
opening statement, in effect, we are asking agencies to say 
what does the public expect of your Department and how would we 
measure progress toward those expectations.
    However, agencies will continue to monitor selected inputs 
and outputs to support our efforts to develop program-based 
budgeting, as illustrated in a significant chapter in the FY 
2000 budget that will be arriving here in the Congress in June.
    Prior to the October 2000 oversight hearing before this 
Subcommittee, my staff worked with the General Accounting 
Office to spot-check selected performance measures for quality. 
In general, GAO found that District agencies did not adequately 
describe the systems or procedures for ensuring the credibility 
of its performance data.
    Verifying our results has been a concern of the Mayor's 
from the start of his administration. As a result, we asked, in 
June, the Inspector General to audit agencies' calendar year 
scorecards and fiscal year measures to identify common areas in 
need of improvement, and best practices in agencies that can be 
shared with colleagues throughout the city.
    One of the Inspector General's initial findings was, across 
several agencies, a lack of clear policies and procedures for 
recording, calculating, and analyzing performance data, echoing 
the GAO's findings. By summer 2001, my office will develop a 
set of general guidelines for agencies to document how they 
collect, manage, and report performance data for the goals and 
measures in the agency FY 2001 performance accountability 
reports and the 2003 performance accountability plans.
    As much progress as we may have made in designing and 
implementing our performance management system, I believe we 
are at least another year away from a fully integrated and 
seamless operation. We have the major components in place--a 
citywide strategic plan crafted by our citizens to reflect 
their priorities; scorecards to present clear goals and 
deadlines to the public; agency-specific strategic plans that 
outline fundamental changes in the way each of our agencies 
conducts business; and individual performance contracts that 
translate our larger citywide plans into tangible personal 
commitments, measures by which the Mayor and the public can 
judge the success of each of his cabinet members.
    In future years, District budgets will be increasingly 
based on past performance, and requests for new funds will be 
accompanied by justifications tied to projected performance 
with and without the new funds. We have included a special 
chapter, as I noted, on performance-based budgeting in this 
year's budget for FY 2002 which the Council is now considering, 
and it will have one or more performance-based budgeting 
presentations for at least one program from each of seven major 
District agencies.
    We anticipate presenting a full performance-based budget 
for at least those agencies in our FY 2003 budget a year from 
now. Establishing these connections between expenditures and 
results is critical to both make work more meaningful for 
District employees and to restore confidence in the District 
Government.
    As I said at the outset, establishing the District's 
performance management system is an evolutionary process. We 
have accomplished a great deal in the first 2 years of the 
Williams administration, but we have more work to do. We 
appreciate the support we have received from this Subcommittee, 
from the GAO, and we look forward to working with both of you, 
as well as with the public, as we continue to refine and 
improve and update the Mayor's performance management system.
    I would be happy to answer any questions you might have now 
or after Ms. Kellems and Chief Ramsey make their presentations.
    Senator Voinovich. If it is all right with you in terms of 
your time, I would like to hear from Ms. Kellems and the Chief. 
Would that work out for you?
    Mr. Koskinen. That is fine.
    Senator Voinovich. Ms. Kellems.

  TESTIMONY OF MARGRET NEDELKOFF KELLEMS,\1\ DEPUTY MAYOR FOR 
        PUBLIC SAFETY AND JUSTICE, DISTRICT OF COLUMBIA

    Ms. Kellems. Good morning, Mr. Chairman. Thank you for the 
opportunity to discuss the District of Columbia's performance 
management system. As you requested, I will outline my 
evaluation of the performance of Chief Charles Ramsey and the 
Metropolitan Police Department during 2000.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kellums appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    As Mr. Koskinen noted, I evaluated Chief Ramsey's 
performance against his FY 2000 performance contract.
    Senator Voinovich. Can I interrupt you just a minute? If 
you could speak a little bit closer? Even with my hearing aids, 
I am having a tough time. And you can take your time.
    Ms. Kellems. My husband tells me I talk too fast. Sorry 
about that.
    As Mr. Koskinen noted, I evaluated Chief Ramsey's 
performance against his FY 2000 performance contract, his 
calendar year 2000 scorecard, and other relevant activities and 
accomplishments.
    I have submitted written testimony for inclusion in the 
record, with your permission. That testimony outlines in much 
greater detail each of the performance goals and measures that 
I will briefly highlight today.
    Chief Ramsey's evaluation was for his performance in 2000. 
But by way of background, it is important to note that at the 
end of 1997, Part I crimes in the District totaled nearly 
55,000. Chief Ramsey assumed leadership of the MPD----
    Senator Voinovich. I am sorry. What was that?
    Ms. Kellems. Nearly 55,000 at the end of calendar year 1997 
for Part I crimes.
    Chief Ramsey assumed leadership of the MPD in early 1998. 
Less than 2 years later, Part I crimes totaled less than 
40,000, a drop of 27 percent. Homicides are the lowest in many 
years, as is youth violence. Much of this decline in crime can 
be attributed to Chief Ramsey's wholesale reform of the 
Department. Incrementally over the last 3 years, Chief Ramsey 
has implemented a community-oriented policing strategy, called 
Policing for Prevention, that the Chief will detail more fully 
in his testimony.
    Certainly, there are many areas in which MPD must improve, 
but Chief Ramsey has exceeded expectations in controlling 
crime, managing major events, rebuilding the credibility of the 
Department, and restoring a relationship with the community.
    As I will describe today, his accomplishments in 2000 met 
or exceeded the expectations set by the citizens. But equally 
important, Chief Ramsey has instilled a new pride and a new 
level of accountability in the Metropolitan Police Department, 
and the citizens of the District of Columbia are much better 
served by their police than ever before. He produced these 
outcomes while transforming all aspects of a troubled agency.
    I turn to a brief outline of the component parts of the 
Chief's performance contract that were evaluated. Each agency 
director's performance contract is divided into two sections, 
general requirements expected of all agency directors and 
agency-specific requirements that are drawn from the agency's 
strategic plan.
    Chief Ramsey's performance was evaluated against a total of 
nine contract requirements--three general requirements and six 
agency-specific requirements. Chief Ramsey exceeded 
expectations on four of the nine contract requirements, and met 
expectations on the remaining five. The rating of ``exceeded 
expectations'' means that an agency director has met 90 to 100 
percent of the expectations.
    The first general requirement area in each agency 
director's performance contract was alignment to the Mayor's 
Strategic Plan. In this area, Chief Ramsey exceeded 
expectations. His strategic plan outlined a series of 
performance objectives and measures, each aligned to one or 
more of the five key areas in the Mayor's Strategic Plan. The 
Chief's plan primarily supports two of these five areas--
building and sustaining healthy neighborhoods, and making 
government work.
    His plan also projects these objectives out over several 
years, with more rigorous performance standards each year. This 
long-range planning avoids the common problem of new programs 
and initiatives that are started up and then disappear in the 
same year, never achieving meaningful, lasting, and sustainable 
change over time.
    The second general requirement in each agency director's 
performance contract is the establishment of performance 
agreements for their senior managers. Chief Ramsey met 
expectations in this requirement area.
    He also met expectations in the third and final general 
requirement area in every agency head's performance contract. 
The third area is the development of a risk management plan for 
the agency.
    In addition to the general requirements of all cabinet-
level agency directors, each agency director's performance 
contract includes agency-specific performance requirements. 
Chief Ramsey's contract includes six such requirements drawn 
from his strategic plan. Chief Ramsey received ratings of ``met 
expectations'' or ``exceeded expectations'' on all six of these 
requirements. I will outline the first two of these in some 
detail, but further details are provided on all six in my 
written submission.
    The first agency-specific requirement was to improve 
police-community coordination. This is one of the areas of most 
notable improvement in the Department. Under Chief Ramsey's 
mandate, the sworn members of the Department have received 
extensive training in community-police relationship-building 
and Problem-Solving. MPD supports the officers with literature, 
training, management, and accountability.
    Partnerships for Problem-Solving was established in 43 
Police Servicing Areas (PSA) in the year 2000 and is now in 
place in 55 of the District's PSA's. They will be in place in 
all 83 PSA's by the end of the fiscal year.
    Additionally, MPD command staff participate in eight 
Neighborhood Service core teams in each of the city's wards. 
These core teams are multi-disciplinary groups that work with 
community members to identify, prioritize, and resolve chronic 
neighborhood problems such as nuisance properties that require 
the resources of many agencies.
    One significant weakness in this requirement area that was 
discussed during the evaluation process was the public 
perception that MPD was unresponsive or uncooperative with the 
community in its homicide investigations. The sentiment of many 
homicide survivors was that their cases had been left 
unattended or uninvestigated. Moreover, some felt that if MPD 
were more cooperative, more homicide cases would be brought to 
successful closure. In FY 2001, Chief Ramsey is implementing 
sweeping reforms in homicide investigations, and has committed 
to meeting his 65-percent closure rate and to changing the 
public's perception.
    The second agency-specific requirement that was evaluated 
was the Chief's goal of increasing the presence and visibility 
of sworn officers in the community. Some of the activities 
outlined in my written testimony address the issue of officer 
visibility, but the other essential element is raw numbers of 
officers deployed on the streets.
    In June 2000, MPD achieved its budgeted staffing complement 
of 3,600 sworn officers. Only 12 months before, the Department 
had been at 3,450. In fact, at one point, in September 2000, 
MPD's recruiting was so successful the Department was able to 
make use of Federal grant funds to exceed 3,600 by 58 officers.
    In addition to these 200 newly hired officers, Chief Ramsey 
nearly doubled that number again with his innovative 
redeployment program. In fact, between new hires and 
redeployment, Chief Ramsey put the equivalent of 344 additional 
officers on the street, far exceeding his performance goal.
    The third MPD-specific requirement that I evaluated was the 
Chief's obligation to improve MPD responses to emergency and 
non-emergency service calls. The Chief met expectations in this 
area, and again I would ask you to refer to the written 
testimony that outlines more details about the progress we have 
made.
    He also met expectations in the fourth agency-specific 
requirement, which was addressing the challenges of youth and 
domestic violence and child abuse. Similarly, he met 
expectations in building a high-quality workforce, his fifth 
agency-specific requirement. In giving a rating of ``met 
expectations'' in this area, I focused mainly on the Chief's 
recruiting and training.
    The final agency-specific requirement was facilities 
improvement. Chief Ramsey exceeded expectations in this area. 
The most significant evidence of this is found in the MPD 
headquarters that now has a state-of-the-art command center 
that allows the Department to effectively manage daily 
operations, as well as major events such as the Presidential 
Inauguration.
    I will provide a very brief overview of the Chief's 
performance against his scorecard goals. The Chief will talk 
about these in his testimony in much greater detail.
    The performance goals, as Mr. Koskinen mentioned, are the 
public scorecard for agency performance. They contain the 
performance measures that are important to measures of success 
for the community.
    Chief Ramsey's performance against his calendar year 2000 
scorecard goals were also included. The goals were, first, put 
200 more officers on the street. As I mentioned earlier, Chief 
Ramsey exceeded this goal through recruiting new hires, lateral 
transfers, and redeployment efforts that put 344 additional 
officers on the street.
    Second, achieve a 5-percent reduction in Part I violent 
crime. As you noted in your opening remarks, the District 
realized a decrease of approximately 2.6 percent, according to 
our preliminary data, falling short of this target.
    The third goal was to achieve a 5-percent reduction in Part 
I property crimes. The Chief achieved a decrease of 
approximately 5.2 percent, according to preliminary data, 
meeting this target.
    The fourth public scorecard goal was to achieve a 65-
percent homicide clearance rate. The actual clearance rate was 
approximately 57 percent. The national average for cities of 
comparable size is approximately 60 percent. The Chief's target 
remains 65 percent in 2001.
    Based on my assessment of Chief Ramsey's performance in 
2000 against the contract and the scorecard goals, I felt an 
overall rating of ``exceeded expectations'' was warranted. 
Mayor Williams and City Administrator Koskinen concurred after 
our February evaluation meeting with Chief Ramsey.
    As Mr. Koskinen discussed in his comments, we are 
encouraging the agencies to set ambitious, stretch goals that 
they may not achieve immediately, or even over the course of 
one single year. Chief Ramsey's goals were ambitious, and 
although he did not hit every measure under every contract 
requirement, he did meet and exceed expectations overall in 
each category.
    Moreover, the citizens of the District of Columbia have 
benefited greatly from his leadership. The quality of life in 
our neighborhoods and the quality of service delivery by our 
police officers are evidence of his outstanding performance as 
our Chief of Police.
    I also would be pleased to answer your questions. Thank 
you.
    Senator Voinovich. Thank you very much.
    Chief Ramsey.

TESTIMONY OF CHARLES H. RAMSEY,\1\ CHIEF OF POLICE, DISTRICT OF 
            COLUMBIA METROPOLITAN POLICE DEPARTMENT

    Chief Ramsey. Good morning, Mr. Chairman, and thank you for 
the opportunity to testify this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement with attachments of Chief Ramsey appears 
in the Appendix on page 43.
---------------------------------------------------------------------------
    The year 2000 was certainly a year of high-profile events 
for the Metropolitan Police Department. It was also a year of 
everyday challenges and quiet yet significant victories for our 
Department and for the communities that we serve.
    With the support of this Subcommittee and the Congress, as 
well as Mayor Williams and the D.C. Council, the Metropolitan 
Police Department continues to make significant progress toward 
making the District of Columbia a safer, more attractive, and 
livable city for our residents, workers, and visitors alike.
    Year in and year out, no other municipal police department 
in the country has to deal with the quantity or complexity of 
major events that we do. I am very proud of how our members 
respond to these challenges, in particular their handling of 
last April's IMF-World Bank meetings and the Presidential 
Inauguration. I truly believe our Department has set a new 
standard for planning and execution in these types of 
operations for ensuring that major events can take place as 
scheduled, that protestors can lawfully exercise their First 
Amendment rights, and that public safety can be maintained.
    These events, however, are not without cost. Our Department 
has incurred significant and sometimes unbudgeted expenses for 
major events over the past year, both in terms of overtime and 
equipment. Recognizing that these events take place in the 
District of Columbia because this is our Nation's Capital, 
Congress has been very supportive in providing some financial 
reimbursement for our costs.
    Our Department's performance over the last year involved 
much more than handling major events, however. The past year 
also saw continued reductions in crime, growing public 
confidence in the Metropolitan Police Department and, as we 
build for the future, tremendous growth and development of our 
community policing strategy. I am extremely proud of our 
members for their accomplishments in these areas as well.
    Our FY 2000 performance accountability plan included four 
goals: (1) Put 200 more officers on the street fighting crime 
and partnering with the community, (2) achieve a 5-percent 
reduction in violent crime, (3) a 5 percent reduction in 
property crime, and (4) achieve a 65-percent homicide closure 
rate. Detailed information on our performance in each of these 
areas is included as an attachment to my statement.
    I considered these to be stretch goals, deliberately set 
high to give our members and the community something to strive 
for. For example, we set out to achieve a 5-percent reduction 
in crime, knowing full well that this would have come on top of 
significant, often double-digit crime reductions in recent 
years. We also set a 65-percent homicide closure rate, despite 
the fact that homicide clearances are falling nationally. While 
our Department did not meet every goal, I am still pleased with 
our performance in these and other critical areas over the past 
year.
    Putting more officers on the street was a priority not just 
of the Police Department, but of the Mayor and the community. 
We not only met our goal of 200 additional officers, but 
exceeded it through a combination of increased hiring and more 
effective deployment. Our Department surpassed our hiring goals 
during FY 2000, thanks to more effective recruiting, strong 
interest in our lateral hiring program, and lower than 
anticipated attrition rates.
    We ended FY 2000 with just over 3,650 officers, which was 
our highest sworn strength in many years. Our strength has 
dropped about 100 officers during the current fiscal year, as 
spending pressures have prevented the District's Chief 
Financial Officer from granting us the authority to hire new 
officers. That freeze, however, has now been lifted and we will 
begin hiring next month. Our long-range goal, which is being 
supported by a $15 million grant from the Federal COPS office, 
is to rebuild the force to our authorized level of 3,800 
officers.
    In addition to hiring more sworn officers, we have been 
creative in how we deploy our personnel to ensure that we have 
uniformed personnel on the street when and where they are 
needed the most. Last year, we implemented a new shift schedule 
system that increased the number of officers working evenings 
and weekends, when crime and calls for service are at their 
highest.
    We created the Mobile Force, which is a team of officers 
working voluntary overtime during the evening shift to target 
hot spots of crime and disorder. More recently, we established 
a Narcotics Strike Force which focuses on open-air drug 
markets. Using a special $1 million congressional 
appropriation, we were able to get the Strike Force off the 
ground and provide it with state-of-the-art equipment and 
technology.
    Finally, we implemented a redeployment initiative, in which 
most officers in specialized units or support assignments now 
spend 1 week each month in uniform patrolling a police service 
area, or PSA. Redeployment is adding dozens of officers to 
community patrols across the city 5 nights a week.
    More officers on the street is translating into continued 
reductions in crime. Reported crime in the District declined 
for a fifth consecutive year last year, a 4-percent reduction 
overall according to preliminary data. This follows a 9.4-
percent reduction in 1999. Homicides fell by nearly 2 percent 
last year, to their lowest level since 1987. Homicides 
involving juvenile victims, a particular concern in recent 
years, fell by nearly one-third last year, from 28 to 19.
    Other violent crimes did increase slightly in 2000, which 
means we fell short of our 5-percent goal. However, property 
crimes such as burglary and auto theft declined by more than 5 
percent, falling to their lowest levels in decades last year.
    Crime is down not only because more officers are on the 
street, but also because of stronger partnerships between 
police and community. Over the past year, we continued to 
enhance our community policing model, focusing on the critical 
areas of training, problem-solving, leadership, and 
accountability.
    For example, we expanded our innovative Partnerships for 
Problem-Solving training program which provides residents and 
their officers with information and techniques on how to work 
together to strengthen leadership and accountability. We 
assigned a lieutenant to head up each PSA and provided those 
lieutenants with specialized tools and training on their role 
in community policing.
    We created a new, more efficient system for police officers 
to access other city services that impact public safety, and we 
forged new partnerships with social service agencies and other 
providers to get at some of the underlying causes and 
conditions that contribute to crime in our city. For example, 
our Office of Youth Violence Prevention is working with the 
clergy and other community stakeholders to put in place 
effective intervention and prevention programs for at-risk 
youth.
    As I noted earlier, the homicide rate in our city continues 
to drop, which is encouraging. After declining 2 percent last 
year, homicides are down almost 40 percent so far in 2001. My 
goal, and this is certainly another stretch goal, is to end the 
year with fewer than 200 homicides for the first time since the 
mid-1980's. We plan to accomplish this through a combination of 
focused law enforcement strategies targeting the most violent 
offenders, as well as intervention and prevention strategies 
targeting at-risk individuals and behaviors, including drug 
trafficking and abuse. I see this short-term goal of fewer than 
200 homicides as the next step toward reducing the homicide 
rate even more dramatically over the next several years.
    An equally important goal is to increase our homicide 
clearance rate. Not just the Metropolitan Police Department but 
major city police departments across the country are facing 
unprecedented challenges when it comes to solving homicides.
    Whereas 35 years ago police closed almost 9 out of every 10 
murders, that number has dropped to between 60 to 70 percent in 
recent years. This trend is driven in part by the changing 
nature of homicide itself. Years ago, most homicides involved 
family members or other people who knew one another. Today, 
homicides are more likely to involve strangers arguing over 
drugs, gang territory, and the like. This factor, combined with 
the reluctance of witnesses to come forward and the greater 
sophistication of some offenders, has led to a decline in 
homicide clearance rates across the country.
    The District of Columbia has been no exception. Our 
homicide closure rate for the year 2000 was 57 percent, down 
from 61 percent in 1999, and below our goal of 65 percent. 
Increasing the clearance rate remains a key goal for our 
Department and we are taking a number of steps to meet that 
goal.
    These include a new standard operating procedure for 
homicide investigations; an upgrade of our computerized 
criminal intelligence system; a new, more rigorous selection 
process for detectives; enhanced victim and survivor outreach; 
and expanded training. In the area of training, we are creating 
a new criminal investigators academy, with the advice and input 
of London's New Scotland Yard, the world's premier 
investigative agency.
    In short, we will do everything we can to improve our 
ability to investigate and close homicides and other violent 
crimes. To the victims and survivors of these crimes, we owe 
nothing less than our very best effort.
    I just want to touch very briefly on other accomplishments 
over the past year. These were not specifically identified as 
goals in the year 2000, but they certainly contributed to our 
success last year.
    One of the accomplishments is the dramatic reduction in the 
use of force by members of the Metropolitan Police Department. 
Just 2 years ago, following a series of articles in the 
Washington Post and a number of high-profile use-of-force 
incidents, I asked the U.S. Department of Justice to come in 
and help MPD analyze and reengineer the entire range of 
policies, procedures, equipment, and training related to the 
use of force.
    Since then, we have worked very hard internally and with 
the Justice Department to make dramatic improvements in all of 
these areas. We are now close to finalizing a memorandum of 
understanding with DOJ that will endorse the changes we have 
made and avoid a formal consent decree that other departments 
have entered into.
    Our reforms in this area have been substantially. We 
totally rewrote our use of force policy, introducing a use of 
force continuum that includes verbal command and less than 
lethal weaponry. We equipped and trained our officers with OC 
spray and new expandable batons, known as ASPs. We increased 
officers' firearm training from 8 to 16 hours a year, and 
expanded the course to focus on tactics and judgment, not just 
marksmanship. To improve investigations and recordkeeping, we 
created a first-ever Force Investigation Team that responds 
immediately to the scene of all instances in which officers use 
deadly force.
    The results of these and other reforms have been dramatic. 
Over the last 2 years, police-involved shootings have declined 
78 percent. In 1998, 32 suspects were shot by MPD officers, 12 
of them fatally. Last year, seven suspects were shot by the 
police, only one fatally. In short, we have gone from being a 
national embarrassment in the area of use of force to a 
national model for innovation and effectiveness.
    Over the past year, we have also expanded our level of 
cooperation with other law enforcement agencies that have 
jurisdiction in the District. This enhanced level of 
cooperation was critical during the IMF-World Bank protests and 
the Presidential Inauguration. But cooperation is also taking 
place on a daily basis throughout our city.
    For example, a law that was spearheaded by Congresswoman 
Norton and passed by Congress allows our Department to enter 
into cooperative agreements with other agencies, permitting 
them to extend their jurisdictions and to assist MPD. To date, 
we have cooperative agreements in place with Amtrak and the 
Zoological Police, and several more in the developmental stage. 
These, of course, are in addition to MOUs that already exist 
with the U.S. Capitol Police and the U.S. Park Police.
    We are working closely with Federal agencies on critical 
problems of illegal drugs, guns, and arson. The DEA task force, 
for example, has provided us with valuable analysis of drug 
trends and markets in the District, and the task force 
continues to assist our enforcement efforts.
    The ATF has provided the Metropolitan Police Department 
with new computer technology that allows our Department to 
access their Washington Regional Gun Crimes Center in order to 
trace firearms more quickly and efficiently. We have also 
exchanged personnel with ATF and acquired a new arson truck, as 
we work together on reducing arson crimes in the District. 
These types of cooperative efforts will be critically important 
in the future as we continue to focus on enhancing police 
presence and reducing crime.
    For FY 2001 and 2002, we have made some changes in our 
system of defining performance goals, and I know you have some 
concerns around that. Rather than focus on a few relatively 
narrow goals, we have broadened our goals and established 
specific objectives and performance measures within each goal. 
Detailed information on these specific goals and objectives is 
also attached to my testimony.
    While our approach to performance accountability has 
changed slightly, our basic commitments remain the same, to 
reduce and prevent crime, to hold offenders accountable, to 
enhance the public sense of safety, to use force judiciously 
and fairly, to ensure customer satisfaction, and to continue 
developing our organization.
    I know this hearing is focusing on year 2000 performance. 
In closing, I would ask the Subcommittee to step back and take 
a slightly longer view of the progress made in the Metropolitan 
Police Department.
    I became Chief of MPD almost 3 years ago. At that time, 
many of our facilities were literally falling apart. Our 
equipment was sub-standard, our computer technology was 
outdated, our policies and training were spotty, especially on 
critical issues such as use of force. Our recruiting was 
insufficient and ineffective. We were actually losing more 
officers than we were attracting. Our community policing 
strategy covered only the basics. Morale within the Department 
was low and community confidence in the police was shaken.
    Over the past 3 years, my management team and I have worked 
very hard, and quite successfully I believe, to rebuild this 
police department. We have rebuilt not only the physical 
infrastructure; we have also rebuilt the pride of our members 
and the confidence of the people that we serve.
    The fact that we are concentrating our energy and resources 
on something as complex as improving our homicide clearance 
rate and not on something as basic as equipping our districts 
with toilet paper or making sure officers attend firearms 
training is a sign of just how far we have come.
    The comprehensive rebuilding effort we have undertaken 
could not have been possible without the support of this 
Subcommittee and the entire Congress. Not just your financial 
support, but your leadership and assistance on public safety 
issues in general, have made a tremendous difference to our 
Department and the residents that we serve.
    We still have a long way to go to make our city, our 
Nation's Capital, as safe and livable as it should be. But I am 
confident that with the continued support of our Mayor, the 
District Government, the President, the Congress, and 
especially our partners in the community, we can and will 
continue to reduce crime and work toward making the 
Metropolitan Police Department a model for community policing 
in our Nation.
    Thank you.
    Senator Voinovich. Thank you, Chief. That was a very 
impressive presentation. I identified with many of the things 
that you were talking about because, as you know, I was Mayor 
of Cleveland for 10 years.
    Chief Ramsey. Yes, sir.
    Senator Voinovich. And one of the challenges was to 
transform our police department into a department that was 
responsive to the community's needs and one that people had 
confidence in. I think the concept of your community officers 
working with the community is excellent because that is a way 
of breaking down the barriers between the police department and 
the people they are serving in the community.
    I would like to get more information from you on how you 
are dealing with the use of force. The fact that you were able 
to avoid a consent decree is very impressive. My former safety 
director, who went to work for me when I became governor and 
ended up being head of the Department of Public Safety for the 
State, is now the safety director in the city of Columbus and 
trying to come to grips with that.
    All over the country, we have got problems with use of 
force, and I am not going to ask you to go into the details 
with it, but I would love to see, maybe, several pages on what 
you did in order to put that in place. You have had some good 
results with it, which is very comforting to know. Sometimes, 
you put these things in place and you don't see the results.
    Have you increased the diversity training on the part of 
the current officers and new officers? How do you handle that?
    Chief Ramsey. Yes, sir, we have. Actually, prior to my 
arrival the Department entered into an MOU with the Justice 
Department as the result of an action that was filed by the 
Hispanic Police Association some years ago that required us to 
enhance our diversity training. I took advantage of that and we 
expanded on that significantly.
    We provide some 32 hours of training for recruits in the 
academy. We have in-service training now, which prior to my 
arrival was not mandated. We have 40 hours a year now for all 
veteran officers as part of our in-service training. Diversity 
is covered in that.
    At the district level, what we have begun doing is as new 
officers come into a district, they have an orientation. The 
community participates in that and they learn more about the 
community that they will be serving so we can more specifically 
target that population that is in that particular district, as 
opposed to just a more generic type of diversity training for 
officers.
    Senator Voinovich. Do you have a violence or use-of-force 
crack team that comes in, or how does that work?
    Chief Ramsey. Mr. Chairman, we created a Force 
Investigation Team. It is in our Office of Professional 
Responsibility; Internal Affairs, many agencies call it. 
Whenever an officer discharges a firearm at a person, at a 
human being, this team responds immediately to the scene and 
takes over the investigation. Previously, those investigations 
were done at the district.
    This team does a thorough investigation to find out whether 
or not the shooting was within the policy of the Department, 
what training implications may be----
    Senator Voinovich. Excuse me. Is it just limited to 
shooting or all the use of force?
    Chief Ramsey. Well, it is expanding to all uses of force. 
We started it off with just shootings. Now, they are moving 
into all areas of use of force, whether a firearm is involved 
or not. So we have just given them some added responsibility. 
We will have to staff that unit up more so that they can handle 
more cases. But our feeling is that we need to attack all uses 
of force the same way so that we can make sure that officers 
are always using only that level of force that is necessary.
    Senator Voinovich. You have a crack team of people on call 
24 hours so that is the group that comes in and investigates 
rather than the officers who are on the scene?
    Chief Ramsey. Yes, sir, they are on call 24 hours a day, 7 
days a week, whenever an incident takes place.
    Senator Voinovich. Do you have any opportunity for citizens 
in the community who are unhappy with the performance of the 
Department to file a complaint, like a police review board or 
civilian review board?
    Chief Ramsey. Yes, sir. Just recently, a Citizen Complaint 
Review Board was established. Citizens can make a formal 
complaint either through our Department or through the CCRB 
which is now functioning. They handle excessive force, verbal 
abuse, harassment, those kinds of complaints. Our Internal 
Affairs now continues to handle other issues regarding 
misconduct. My goal is to eventually have our Internal Affairs 
handle all other forms of conduct, and take all those 
investigations away from the districts.
    Senator Voinovich. I would like to know more about that, 
also.
    As you know, my staff has been working with the Department 
in terms of expanding the memorandums of understanding between 
the Department and the various other police outfits in the 
District. After the shooting at the National Zoo, I think that 
emphasized the importance of coordination between those various 
police departments.
    It appears that you have signed agreements now with Amtrak 
and the National Zoo Police, and that you are trying to work 
out agreements with the FBI and the GSA. Is that correct?
    Chief Ramsey. Yes, sir, it is.
    Senator Voinovich. Are there any other agencies that you 
are looking at entering into agreements with?
    Chief Ramsey. Well, we have made the offer obviously to all 
the different agencies. The ones that we work on a regular 
basis and already have MOUs with are the Secret Service, the 
Park Police, and the Capitol Police, who cover the majority of 
the area in the District. We work with them on a regular basis 
now and they do have jurisdiction.
    We have extended the offer to other agencies, the Mint 
Police, for an example, the Federal Protective Service, and 
others. Many of those are in the works in terms of what exactly 
it is that their area would cover, what they can do. Many of 
the universities in the area have expressed an interest in 
extending their jurisdiction beyond their campus, which would 
be useful in many instances, so we are working actively with 
them.
    Senator Voinovich. I can tell you that the more of those 
agreements you have and the better understanding you can get 
and coordinate your effort, the more effective you are going to 
be. Three thousand and eight hundred is a very ambitious goal, 
but you can maximize your efficiency by working with other 
agencies and their working with you, and by coordinating all 
the resources you have, really make a difference.
    Mr. Koskinen, I have looked at these performance issues, 
and the first question I would like to ask is what are we going 
to measure the FY 2001--what goals are you going to use?
    Now, I mentioned in my opening statement that there were 
goals, and I talked about 20 and you performed on four. One of 
the questions I was going to ask is how did Ms. Kellems 
evaluate you. And I thought she did a pretty good job, so I 
don't need to ask that question.
    Mr. Koskinen. As you know, part of the problem with 
performance management is that at any one point in time you are 
reporting on the prior year's results, acting on the current 
year's goals and planning the next year's goals. For instance, 
we just submitted the FY 2000 performance accountability 
report, are half-way through FY 2001 and just submitted our FY 
2002 budget to the Council.
    As the Mayor, the Deputy Mayors and I met with each agency 
to review performance in 2000, we had to review some goals for 
the fiscal year ending on September 30, 2000 and some goals for 
the calendar year ending December 31, 2000. For FY 2001, all 
goals will be reported on a fiscal year basis.
    In addition, at the outset of the FY 2002 budget process, 
we asked agencies to review all existing goals--FY 1999, 2000 
and 2001--and to consolidate them into a single set of goals so 
that we get as much continuity over time as we can, so we can 
look at trend data over time and tell you and others how we did 
in 1999, 2000, and 2001. Those consolidated goals are presented 
in the FY 2002 budget that Congress will receive in June.
    Senator Voinovich. So the goals that we are going to be 
looking at next year will be what goals?
    Mr. Koskinen. We have a set of goals right now for 2001 and 
there have been some, although much less, changes from what was 
in the budget presentation, which is where you have been 
looking for goals, for 2001 because that budget was done last 
year. We have modulated those in the performance agreements 
with the agencies, and those will be public. They will be on 
Web sites. We will be delighted to provide you and your staff 
with exactly what those are. Those goals then build on and are 
consistent with the goals that are in 2002.
    One of the things we did with the agencies was wherever 
possible, we wanted in 2001 to continue with an expansion of 
whatever they had in 2000. Some agency directors said, well, 
those are my 2000 goals, now I need to have a new set of goals. 
And our view was no; if those were good enough goals in 2000, 
we need to build on those. We may add goals, but we should, in 
fact, over time have a view, as I say, of looking at what does 
the public expect of your agency and how are you doing it.
    Senator Voinovich. So I will specifically be able to know 
what the goals are for 2001 so that we can look at those and go 
through them item by item?
    Mr. Koskinen. You will know, yes. In fact, the newest 
initiative, trying to move this along, is we, in 2000, had 
scorecard goals which were the performance goals extracted out 
of the process, and those were very visible. If you went into 
an office, you saw what the scorecard goals were of that 
department. We had a public rollout and reported on the results 
in January.
    What we are now moving to is we would like to, in every 
office where you go, not only know what their goals for the 
year are, but have regular, updated status reports on how they 
are doing in the middle of that year. So if you go into the 
Department of Motor Vehicles, you not only know what their wait 
time goal is for car inspections, but you will see actually how 
they have been doing month by month.
    We need to have that on Web sites and we want to have that 
out publicly so that when you walk into any District Government 
office, you will see what their goals are for the year and how 
they are doing and being measured against those goals as we 
move through the year rather than just once at the end of the 
year.
    Senator Voinovich. There were 20, and according to the 
information we have they are dropping 17 of them. Are there 
going to be replaced with some other goals?
    Ms. Kellems. Yes, they will be. Some of those are being 
replaced. Some of those are just being aggregated because of 
how we are going to collect the data. For MPD, the proposed 
measures in 2001 and 2002--there are five major goals. Under 
each of those, there are two or three specific measures, and I 
will give you an example. The Chief alluded to some of these.
    The first goal is reduce and prevent crime and criminal 
victimization citywide. This goal will show up in 2001, 2002, 
2003, and beyond. Underneath that, there are three specific 
measures. One is the percent change in Part I violent crime, 
one is the percent change in Part I property crime.
    Senator Voinovich. Yes, but when you are talking about Part 
I crimes, you will break them down by categories? We are not 
going to get just one general number? We will be able to 
monitor the various levels of Part I crimes?
    Ms. Kellems. I think the issue comes down to what that 
means, where we are presenting that information. All that 
information, publicly available statistics, are all available 
on the MPD Web site. One of the things we are trying to 
consolidate is the amount of reporting that we are doing in the 
various avenues that we have to report to. All of the crime 
statistics are broken down by type of crime and that is public 
information.
    Mr. Koskinen. One of the issues with GAO--and we had the 
same problem with Federal agencies--one of the criticisms GAO 
had was we had too many goals; they were all over the place. 
And I think that was right. What we need, and our goal 
ultimately for the Department is we need three or four very 
visible goals that the public is concerned about in that 
department that we can measure, and that we can measure over 
time and you can see how we are doing.
    There will be sub-sets. Some of them will be output goals, 
some will be process goals that will be internal in the agency 
for management purposes. But ultimately what we want to do is 
be able to have people understand quickly and easily what is 
the goal of MPD, what is the goal of the Department of Motor 
Vehicles, what are the major goals of the Department of Public 
Works, and then be able to measure against them.
    There will be sub-goals and statistics available behind 
that, but we are trying to make it easier for people to 
understand. For instance, in fire, the ultimate issue and 
interest the public has is we would like fewer fires and we 
would like faster response time.
    Senator Voinovich. So we are going to have information on 
response time to fires, police calls, and EMS?
    Ms. Kellems. Absolutely.
    Mr. Koskinen. In fact, one of the reasons the goals have 
changed is, again, it was a prior administration, but when you 
started in 1999 you had an approach and some of it was just pro 
forma. And as we are moving through, one of the things we are 
going to do and why the goals change is we are trying to refine 
and get better at identifying exactly how to articulate the 
goal in a way that resonates with people. We need to manage 
against the data in terms of how are we doing, but also we need 
to communicate that data to the public in a way that they can 
comfortably understand.
    Senator Voinovich. Are you confident that you have the 
wherewithal to do the measuring? There was some question about 
whether or not, because of the recordkeeping.
    Mr. Koskinen. Yes. In fact, the IG report has come out this 
week. Last summer, we asked the Inspector General, and we have 
been working with the GAO to take a look at what the data 
collection and procedures are. On the basis of their review of 
three or four departments, we are now developing a set of 
policies and procedures for all of the government agencies, 
because it is one thing to have the goal and one thing to have 
the data.
    What you really want to make sure is that the data is 
accurate and it is in the right time frame. In other words, if 
you are measuring on a fiscal year basis, you want to get as 
much data as you can and make sure that the data being 
collected fits the time of the goal. So I think we will have 
those standards and procedures, but we have asked the IG to 
continue to work with us, and audit and manage against that.
    We, fortunately, and it didn't surprise me, didn't find 
anybody actually manufacturing data. What we have found is that 
the data is not being collected in all places in the same way 
and in an orderly way that can be replicated over time.
    Senator Voinovich. Chief, in organizing your management 
team, who decides--how many districts do you have?
    Chief Ramsey. Seven, sir.
    Senator Voinovich. Seven districts?
    Chief Ramsey. Seven districts.
    Senator Voinovich. And then you have specialty people in 
charge of--what do you call them, bureaus?
    Chief Ramsey. Well, actually, we have organized now. It is 
all part of Operations if it is an operational unit.
    Senator Voinovich. But there are key people in the 
operational unit?
    Chief Ramsey. Right.
    Senator Voinovich. Who decides who those individuals are 
going to be?
    Chief Ramsey. In terms of our command staff, I do. I began 
a process for selection of people in the command ranks where 
they actually apply, and submit a resume. I ask a series of 
questions that they have to respond to in writing, and then set 
up interviews for these people with a board that is 
established, where my executive assistant chief chairs along 
with a commander and another assistant chief. And then the top 
8, 9, or 10 people, I will have one-on-one interviews with.
    Senator Voinovich. The people in order to qualify--do you 
have a pecking order where you go off and you get your sergeant 
and move them up the line? We call them inspectors, the top--do 
they have to achieve one of those levels before they could be 
considered as a district commander?
    Chief Ramsey. Yes, sir. Only captains right now, by our 
personnel regulations in the District, are eligible to move 
beyond that rank. I cannot select from any rank other than 
captain.
    Senator Voinovich. What are the ranks above captain?
    Chief Ramsey. Inspector, commander, assistant chief.
    Senator Voinovich. And the ones below are lieutenants?
    Chief Ramsey. Yes, sir. It would be police officer, 
detective, sergeant, lieutenant.
    Senator Voinovich. Do you feel that you have enough 
flexibility with the way it is working out? My experience in 
Cleveland was that many times the way the civil service thing 
worked was that we got people that got to be inspectors, which 
was one of the highest ranks, and they didn't have the 
interpersonal skills and the management skills to get the job 
done. We had to reach into the lower ranks to get people, and 
we gave the chief the opportunity to select his own management 
team in terms of the district commanders and also the people 
who ran the bureaus.
    Do you feel that you have enough flexibility there in terms 
of the pool?
    Chief Ramsey. It is limited when you only have captains to 
select from. The more flexibility, the better. But I think that 
you raise a larger issue, and that is how we prepare people 
throughout the organization to move up the ladder, if you will.
    The problem in policing is that the only way to advance 
financially, quite frankly, is through a promotional process. 
Many people take a promotional test not because they 
necessarily want to be supervisors, but because it pays more 
money and they have families to support. We need to carve out 
career paths for individuals that don't necessarily involve 
promotions into supervisory ranks, where people can be 
compensated based on the skills they have and what they bring 
to the table.
    Everyone doesn't want to be a supervisor, and we wonder why 
a person was a heck of a detective but a terrible sergeant or a 
terrible lieutenant. They ought to be able to have a career 
path where they can stay in investigations and be rewarded.
    We also do not measure people appropriately, I don't think, 
in terms of judging their ability to move to the next level. 
Most performance evaluations deal with what you do in your 
current role, and you could be very effective, but you need a 
second piece of that, and that is a judgment on your readiness 
to move to the next level. That is something that we are trying 
to put in place with our performance evaluation system that we 
are trying to develop within our Department.
    Senator Voinovich. When you have these PSA's, do you have 
an officer assigned to each one of them?
    Chief Ramsey. Yes, sir. We have 83 police service areas in 
the city. We average close to 14 people per PSA. Some PSA's 
have many more, some have slightly less. It depends on the work 
volume, but they are permanently assigned for at least a year. 
That gives us a cadre of people who get to know the crime 
conditions, and the community in that particular PSA.
    Senator Voinovich. How often does your district commanders 
meet with the people in those PSA's?
    Chief Ramsey. Well, we have just begun a new process now 
where our district commanders are required to have regular 
meetings with the PSA lieutenants and talk about crime and 
disorder problems in the PSA. They have to do that at a 
minimum, monthly. In some of the PSA's that are more high-
crime, they do it more frequently.
    So they have sessions--we call them TOPS, Targeted 
Organizational Performance Sessions--where they actually go in 
detail around all the crime and disorder problems, other 
performance issues, people on the medical roll, people on 
limited duty, various other personnel matters, too. Those 
lieutenants are the ones who run that PSA, and their job is to 
see to it that the lieutenants are running them properly and 
dealing with the issues.
    Senator Voinovich. One of the things we found when we got 
our group together that was amazing--where we had especially 
burglaries, the people in the community sometimes were more 
effective in apprehending these individuals than we were 
because there was a grapevine that was working out there. They 
were able to not only help us with that, but also tip us off to 
some things that were happening in the community.
    We called them police-community relations groups. The 
district commander was required to meet with them once a month, 
and then they would have the zone officers in also to break 
down the barriers between the people and the department. It was 
just amazing, over an 8-year period, how the attitude of the 
folks in the neighborhood toward the department and the 
department toward folks in the neighborhood changed from one of 
an adversarial--beat-up, screaming, yelling--to finally in the 
last couple of years where the local groups would honor police 
officers and their families. Council members would get up and 
give tributes. It was just amazing, and it was only because 
people started to meet together and put each others' shoes on 
that really made the difference there.
    Mr. Koskinen. We are actually building on that same concept 
into what we call Neighborhood Action, which is to go into the 
39 clusters of communities in the District and reach out to the 
communities, all of the faith-based civic organizations, 
council staff, etc., and on a regular basis develop the plans 
and priorities, as I said in my testimony, and then also deal 
with chronic critical issues in those neighborhoods, according 
to the neighbors' priorities.
    We pulled together all of the relevant city agencies for a 
safe and clean community. So we have the Department of Public 
Works, and Consumer and Regulatory Affairs. But most 
importantly, one of the major, leading agencies for us has been 
MPD because they have been there already in their community. So 
they and Fire and EMS are critical parts of what we call the 
core teams in each of these wards, who on a regular basis now 
are working not only for longer-term planning and priority-
setting, but then organizing all of the agencies to work 
together in a community to solve problems, whether they are 
drug dens or abandoned housing or other kinds of chronic 
problems in the neighborhood that historically we have dealt 
with episodically, or one agency after another has tried for 
each problem to get the relevant agencies together and solve 
that individual one.
    So, in effect, what we are doing is creating an ongoing set 
of teams, cross-government teams. But it basically goes back to 
your instinct, which is our experience as well, which is the 
people who know best about what the problems in each individual 
community are and what the right priorities are, are the people 
who live there. And if you can engage them in a dialogue, 
first, you will be more efficient and effective in your work. 
But, second, you will then correspondingly develop a much 
greater confidence and acceptance by the community of the work 
that their government across the board is doing.
    Senator Voinovich. Well, it is amazing. I have gone back to 
Cleveland several times, out in the neighborhoods, and our 
local development corporations and our neighborhood housing 
organizations have just been unbelievable in terms of dealing 
with rehab, new housing, code enforcement, and the rest of it. 
In fact, people volunteer to do code enforcement for us, 
neighborhood people.
    Mr. Koskinen. We have volunteers who go with us on our 
clean city assessments. In one area, we are doing them every 2 
weeks and the assessors are volunteers from the neighborhoods, 
who have said, gee, we will come out and help you. And then we 
publish which streets are clean, which are hazardous. Again, we 
have had this tremendous outreach from the community, who are 
very knowledgeable and delighted to play a role with us.
    Senator Voinovich. The last question, and we didn't get a 
chance to talk about it when you were in the office, but is 
there any thought being given to instituting quality management 
in the city? What I mean by quality management is the training 
of people who work in the city in quality principles and 
problem-solving, creating quality management team facilitators, 
and in effect empowering the people who are charged with the 
responsibility to get the job done, to come back and talk about 
how they think they can best achieve what it is.
    Mr. Koskinen. We are coming at that in two ways. One is we 
started with performance agreements with the cabinet heads. We 
now have performance agreements that are being developed, or 
were supposed to be developed by now, with all the middle 
managers. We have a management supervisory service, who are 
managers who have agreed to be at will, rather than civil 
service-protected, in exchange for bonuses for performance, and 
then any other manager. And then we are going to go down to 
performance agreements with front-line workers, which again 
will allow everyone to be working in the same direction.
    But at the same time, we have a citywide effort for what 
are called labor-management partnerships, and we are developing 
partnership councils in each agency which are focused on just 
that issue. With front-line workers and managers, how do we do 
the work today? How could we improve the work we are doing so 
that, in fact, we provide better-quality services and meet 
these performance expectations that we are generating?
    We have some wonderful examples, as everyone does. It is 
the Japanese quality circle concept that, again, workers on the 
front lines are the best people at reengineering the process.
    Senator Voinovich. Is it organized or is it more 
extemporaneous department by department?
    Mr. Koskinen. We have set up an Office of Labor-Management 
Partnerships in my office. We have a citywide council chaired 
by the Mayor and labor leaders, and one of their performance 
goals is, in fact, to have active labor-management partnership 
councils in every agency this year. We have training we 
provide. We have trained facilitators.
    In fact, one of the performance measures in the performance 
agreement by the agency heads with the Mayor is to make 
progress on labor-management partnerships and to meet the 
requirements to make sure that their managers have performance 
agreements. So we will measure each cabinet head on how they 
are doing in those two areas, as well as how they are doing in 
overall performance.
    Senator Voinovich. I would like some more information on 
that from you, OK?
    Mr. Koskinen. Yes, we would be delighted to provide that.
    Senator Voinovich. How much time did you spend with the 
Chief evaluating his performance?
    Ms. Kellems. I spent a lot of time by myself evaluating it 
and talking to other people and getting input from the 
community, from staff in the organization, reviewing statistics 
and their reports. To get an estimate on my time, I would 
probably say it was maybe 40 or 50 hours.
    The Chief and I met and discussed these goals, and 
contents, and what things he was being reviewed, on so that he 
had an opportunity to give me additional information if I 
hadn't captured it. And then the document that I drafted was 
presented to the Mayor and to the City Administrator.
    Senator Voinovich. How much time did you actually spend 
sitting with him and doing the evaluation?
    Ms. Kellems. During the actual document presentation?
    Senator Voinovich. Yes, actually sat down with him and got 
all the details and you did the backup stuff. How much time did 
you actually spend sitting at the table?
    Ms. Kellems. Maybe 2 hours.
    Senator Voinovich. Pardon?
    Ms. Kellems. Maybe 2 hours just in this part of it, but I 
think it is important to note the Chief and I spend a good 
amount of time everyday on the phone or communicating or in 
meetings. This is very much an ongoing, daily management issue, 
not a drop in, parachute in once a year and try to capture 
things.
    And I told the Chief if I am not learning anything new in 
this evaluation process, then I haven't done my job and neither 
has he. It was really a way of collecting and presenting the 
information to make sure that it met all of the requirements to 
satisfy the Mayor.
    Senator Voinovich. Chief, how much time do you spend 
evaluating your district commanders, how much physical time in 
a room going through the procedure?
    Chief Ramsey. Well, I have a couple of things that I do. 
With district commanders and district chiefs, I have the 
targeted organizational performance sessions that I personally 
get involved in. I had a staff meeting I attended yesterday, 
for an example, with all the district commanders and assistant 
chiefs that went on for probably about 3 hours and we looked at 
a variety of issues.
    I have a weekly executive staff meeting, usually on 
Fridays, where again for about a 3-hour period we get together 
and we go through all the different issues--crime, and various 
other issues that affect the Department.
    Senator Voinovich. What I am saying is how many people in 
your management team do you personally sit down with the 
paperwork and go through it and write the stuff down and then 
dialogue with them and let them know where they are?
    Chief Ramsey. I do a quarterly one-on-one with command 
staff, is what I do, and I allow an hour, an hour-and-a-half to 
go through that. But, again, it is no surprise because we 
communicate on a daily basis. There is absolutely nothing that 
we talk about that they wouldn't already be aware of.
    Actually, after a couple of months have past, if there is 
an issue, it is usually too late to really try to successfully 
resolve it. So on a daily basis, I take a look at our crime 
summary. I take a look at a variety of other issues. I get on 
the phone. I will make surprise visits.
    Senator Voinovich. Getting back to that time that you sit 
down and you gather the information and you have to go through 
that exercise of thinking about how did they do in terms of 
their goals and then sit down and look them in the eye and say, 
you have this yearly performance and it has been satisfactory, 
it has been better than satisfactory, and let's talk about next 
year, about how much time do you personally do that?
    Chief Ramsey. I would say probably--and I guess I am not 
answering your question properly, but probably a quarter of my 
overall time is spent dealing with individual command staff.
    Mr. Koskinen. I think what the Senator is after is when you 
do the actual formal evaluation, what is that process? In other 
words, sitting down and actually either quarterly or annually--
--
    Chief Ramsey. Because of the fact that these statistics are 
being compiled on a regular basis and I review it on a daily 
basis, I would say that for the formal evaluation it probably 
takes about 3 to 4 hours to prepare for it, so I go over all 
the information, and then it takes another 1\1/2\ to 2 hours to 
sit down with an individual, depending on their command, 
depending on the issues, to spend time one-on-one with them 
talking specifically about them.
    Senator Voinovich. The reason I am asking is because we 
talk about performance evaluation with individuals, and I know 
that it is one of the most difficult things that I have had to 
do over my career as a governor to sit down and go off 
someplace and get the information and go through the form and 
fill it in and then sit down with someone and talk to them 
about their performance and have that kind of experience.
    I think it is one of the things that we talk a lot about, 
but doesn't really get done as much as we would like it to. Too 
often, the quality of it isn't as good as it should be. It is 
kind of neglected and I think it is really important that it be 
emphasized.
    Mr. Koskinen. And as I noted, and I didn't give the 
details, the culmination of all of this is the Mayor and I, 
often with the deputy mayors, spend at least an hour with every 
cabinet secretary reviewing at the end of the year how they did 
for 2000. We will have a cluster review with the Mayor for an 
hour-and-a-half at mid-year, as well.
    But you are exactly right. Having spent 35 years both in 
the private sector and the public sector as a senior manager, 
no one ever actually looks forward to sitting down and going 
through that process. So what you need to do so everyone 
understands its value is design a system that, in fact, makes 
that just part of the way the operation works.
    So at the citywide level, we do a mid-year review with the 
clusters, and then the Mayor and I--and it got delayed and part 
of the reason it got delayed was his schedule. But we probably 
spent an hour each in 30 different meetings, so we spent 30 
hours, the two of us, going department by department doing just 
what you said. How did you do last year? What is your 
evaluation and what is the evaluation of the deputy mayor? What 
are your goals for next year? How do those goals relate? What 
are your resource needs?
    Ultimately, everybody at the end of the process thinks it 
is worthwhile. But you are right; when you look at the next 
time of 30 more of those meetings, you begin to think isn't 
there some way I could shorten this?
    Senator Voinovich. Well, thank you very much for being here 
today, and I look forward to working with you.
    Ms. Kellems. Thank you.
    Chief Ramsey. Thank you, sir.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2499.001

[GRAPHIC] [TIFF OMITTED] T2499.002

[GRAPHIC] [TIFF OMITTED] T2499.003

[GRAPHIC] [TIFF OMITTED] T2499.004

[GRAPHIC] [TIFF OMITTED] T2499.005

[GRAPHIC] [TIFF OMITTED] T2499.006

[GRAPHIC] [TIFF OMITTED] T2499.007

[GRAPHIC] [TIFF OMITTED] T2499.008

[GRAPHIC] [TIFF OMITTED] T2499.009

[GRAPHIC] [TIFF OMITTED] T2499.010

[GRAPHIC] [TIFF OMITTED] T2499.011

[GRAPHIC] [TIFF OMITTED] T2499.012

[GRAPHIC] [TIFF OMITTED] T2499.013

[GRAPHIC] [TIFF OMITTED] T2499.014

[GRAPHIC] [TIFF OMITTED] T2499.015

[GRAPHIC] [TIFF OMITTED] T2499.016

[GRAPHIC] [TIFF OMITTED] T2499.017

[GRAPHIC] [TIFF OMITTED] T2499.018

[GRAPHIC] [TIFF OMITTED] T2499.019

[GRAPHIC] [TIFF OMITTED] T2499.020

[GRAPHIC] [TIFF OMITTED] T2499.021

[GRAPHIC] [TIFF OMITTED] T2499.022

[GRAPHIC] [TIFF OMITTED] T2499.023

[GRAPHIC] [TIFF OMITTED] T2499.024

[GRAPHIC] [TIFF OMITTED] T2499.025

[GRAPHIC] [TIFF OMITTED] T2499.026

[GRAPHIC] [TIFF OMITTED] T2499.027

[GRAPHIC] [TIFF OMITTED] T2499.028

[GRAPHIC] [TIFF OMITTED] T2499.029

[GRAPHIC] [TIFF OMITTED] T2499.030

[GRAPHIC] [TIFF OMITTED] T2499.031

[GRAPHIC] [TIFF OMITTED] T2499.032

[GRAPHIC] [TIFF OMITTED] T2499.033

[GRAPHIC] [TIFF OMITTED] T2499.034

      


</pre></body></html>
